                                         National Railroad Passenger Corporation
                                         Office of Inspector General
                                         10 G Street, N.E.
                                         Washington, D.C. 20002

Final Audit Report 219-2010 – Issued January 12, 2011

Price Proposal Audit: Amtrak Should Negotiate a Price Adjustment to a Major
Acquisition Contract

Audit Identified More Than $16.6 Million in Cost Reductions

The information below provides a summary of the final audit report 219-2010. The
final report contains contractor proprietary information that should not be publicly
released. We have summarized below the major findings, conclusions, recommen-
dation, management comments, and audit response.

Amtrak awarded an acquisition contract for a sum not to exceed nearly $500 million.
Given the contract’s significant dollar value, we undertook an audit of the contractor’s
price proposal. Our audit objectives were to determine whether (1) the data were current,
accurate, and complete; (2) the contractor’s internal controls were adequate, to the extent
that they affect the price proposal; and (3) the contractor’s estimating system was applied
in a reasonable manner.

                         We identified more than $16.6 million in costs for which
  We identified          Amtrak should seek a price adjustment. We determined, with
  more than $16.6        few exceptions, that the contractor’s data were current, accurate,
  million in a           and complete. The contractor’s internal controls with respect to
  potential price        the price proposal were adequate. We found no basis to question
  adjustment.            the vast majority of costs in the contractor’s price proposal.
                         However, we determined that the contractor did not reasonably
apply its estimating system to several cost categories where Amtrak could realize cost
reductions through negotiations with the contractor. Specifically, the contractor
duplicated profit, misapplied labor and training rates, overstated general and
administrative costs, and included warranty and risk costs that we found to be
unreasonable.

In comments on a draft of this report, Amtrak agreed with our recommendation that
Amtrak management use the information contained in this report as a basis to negotiate a
price adjustment to this contract and to support future negotiations regarding contract
options and modification. Amtrak also proposed corrective action and a date for
completion. Further, Amtrak sent a letter to the contractor requesting additional
information on the cost items that we identified in the draft report. Amtrak’s planned
actions are responsive to our recommendation.
